HHS/OIG-Audit--"Review of Unfunded Pension Costs of Community Mutual Insurance Company, (A-07-97-01207)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Unfunded Pension Costs of Community Mutual Insurance Company,"
(A-07-97-01207)
July 1, 1997
Complete Text of Report is available in PDF format
(897 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Unfunded Pension Costs
of Community Mutual Insurance Company (Community Mutual) for Plan Years 1986
through 1995. Contributions were not made to the pension trust fund for Plan
Year 1988. Accordingly, Community Mutual did not fund the pension costs identifiable
with its Medicare segment during this period. As a result, Community Mutual
accumulated unfunded pension costs of $571,413 as of January 1, 1996. Community
Mutual must separately identify and eliminate this amount from the amortization
components of future pension costs.